No.________
_________________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________________________________
October Term, 2020
_________________________________________________________________
MONWELL DWIGHT BOOTH,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
_________________________________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT
OF APPEAL FOR THE NINTH CIRUIT
_________________________________________________________________
ANTHONY R. GALLAGHER
Federal Defender
*EVANGELO ARVANETES
Assistant Federal Defender
Federal Defenders of Montana
2702 Montana Ave., Suite 101
Billings, MT 59101
Telephone: (406) 259-2459
*Counsel of Record
SUBMITTED: December 4, 2020

APPENDIX A
Ninth Circuit Memorandum in United States v. Booth

Case: 19-30249, 09/08/2020, ID: 11815218, DktEntry: 19-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

SEP 8 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

U.S. COURT OF APPEALS

19-30249

D.C. No.
1:19-cr-00027-DLC-1

v.
MEMORANDUM*

MONWELL DWIGHT BOOTH,
Defendant-Appellant.

Appeal from the United States District Court
for the District of Montana
Dana L. Christensen, District Judge, Presiding
Submitted August 31, 2020**
Seattle, Washington
Before: HAWKINS and McKEOWN, Circuit Judges, and KENDALL,*** District
Judge.
Monwell Booth appeals the district court’s denial of a motion to suppress
evidence found in a warrantless search by law enforcement officers. The parties are

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Virginia M. Kendall, United States District Judge for
the Northern District of Illinois, sitting by designation.

1a

Case: 19-30249, 09/08/2020, ID: 11815218, DktEntry: 19-1, Page 2 of 4

familiar with the facts so we need not recount them here. We affirm.
We review de novo legal determinations by the district court
supporting its denial of a motion to suppress. United States v. Brooks, 367 F.3d
1128, 1132 n.3 (9th Cir. 2004). We review the underlying factual determinations
for clear error. Id.
The Fourth Amendment prohibits unreasonable searches and seizures.
Warrantless searches are presumptively unreasonable. United States v. Shaibu,
920 F.2d 1423, 1425 (9th Cir. 1990). A number of “well-delineated” exceptions,
however, permit law enforcement officers to conduct constitutionally reasonable
searches and seizures without a warrant. Murdock v. Stout, 54 F.3d 1437, 1440 (9th
Cir. 1995) (citing Katz v. United States, 389 U.S. 347, 357 (1967)), abrogated on
other grounds by United States v. Ramirez, 523 U.S. 65, 69–70 (1998). Under the
exigent circumstances exception there must be (1) probable cause to search based
upon “known facts and circumstances” and (2) a compelling reason for not
obtaining the warrant—the exigency. Hopkins v. Bonvicino, 573 F.3d 752, 766–78
(9th Cir. 2009). Both requirements existed when police officers searched Booth’s
home.
A search is supported by probable cause when “the known facts and
circumstances are sufficient to warrant a man of reasonable prudence in the
belief that contraband or evidence of a crime will be found.” Hopkins, 573 F.3d

2a

Case: 19-30249, 09/08/2020, ID: 11815218, DktEntry: 19-1, Page 3 of 4

at 767 (internal quotation marks and citation omitted). In light of the 911 call by
Booth’s neighbor, Scott Byykkonen, Byykkonen’s presence at the scene when the
officers arrived, and the physical signs of a break in, the officers reasonably
concluded Booth’s home was recently burglarized, and that evidence of the crime
or the perpetrator could be inside the residence.
Exigent circumstances are those that “would cause a reasonable person to
believe that entry . . . was necessary to prevent physical harm to officers or
other persons, the destruction of relevant evidence, the escape of the suspect, or
some other consequence improperly frustrating legitimate law enforcement
efforts.” Fisher v. City of San Jose, 558 F.3d 1069, 1075 (9th Cir. 2009)
(quoting United States v. McConney, 728 F.2d 1195, 1199 (9th Cir. 1984) (en
banc), cert. denied, 469 U.S. 824 (1984)). We have “upheld, as have other courts,
exigent circumstance searches based on officers finding physical evidence of a
burglary, such as a broken window or forced lock.” Murdock, 54 F.3d at 1441.
Here, the officers reasonably could believe that entry would be necessary to
prevent the escape of the alleged burglar(s). Although Byykkonen stuck his head
into Booth’s residence, this was not sufficient to ensure that a potential burglar was
not still at the residence, particularly since it was a two-story structure. Booth’s
claim that the officers should have pursued the suspicious witness or contacted the
landlord before entering the house undercuts his argument that exigency did not

3a

Case: 19-30249, 09/08/2020, ID: 11815218, DktEntry: 19-1, Page 4 of 4

exist.
AFFIRMED.

4a

APPENDIX B
United States Constitution – Amendment IV

United States Constitution, Fourth Amendment
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

1b

APPENDIX C
Billings Police Case Report – Officer Stovall

BILLINGS POL

..!

DEPARTMENT

CASE REPORT

CASE NO

2018-00081680

SUPPLEMENT

On this date I Officer Stovall was dispatched to a report of a possible burglary in progress. On scene I was
waved down by the next door neighbor Scott Bykkonen who advised that the back door to the house was
damaged and there was a suspicious male leaving the area. Scott stated that he knew who the occupant
of the house was and that the suspicious male was not the occupant. Scott had also stated he was unsure
if there was anyone else inside the residence.
Officer Adams and I found the damaged rear door to the residence. There appeared to be a panel missing
and glass was also broken around it. The door was still open, so Officer Adams and I announced
ourselves and entered inside to check if there were any suspects hiding inside. We checked the bottom
level of the house and did not locate anyone made our way upstairs where we checked the two upstairs
bedrooms. As we made it into the northern most bedroom which was blue in color and had mens clothes
all over the floor, we checked on the north side of the bed and as I turned around I saw two Glock pistols
and and AR -15 rifle sitting on a shelf in the closet. There were also several AR-15 magazines sitting
halfway out of a safe next to the firearms.
Officer Adams and I finished our check of the residence and were unable to locate anyone so we exited
the home.
I then began trying to obtain a phone number from the occupant of the house who was later identified as
Monwell Booth. I made phone contact with Monwell, who stated that he was at work and wasn't going to
do anything right now and had already been told about the incident by his landlord. Monwell stated that his
daughter and friend were going to come over and hang out at his house until he got home. Monwell
seemed to not be very concerned about the possible break in. Monwell stated that if he needed anything
he would call the police.
After several moments a female in a black Cadillac arrived on scene who was later ientified as Samie
Nava. Samie told me that she was on the phone with Monwell and was going to sit at his house until he
was home. Sshe asked me if I made sure no one was in the house to which I told her there was no one
inside and Nava walked off.
Based on Booth's response, I began checking the hard copy for probation and parolee. I discovered that
Booth was listed as a violent offender and was on probation for assault with a weapon and criminal
endangerment.
Upon this discovery I immediately contacted Probation and Parole, and spoke with Officer Baxter. Baxter
advised that with the knowledge of Booth being a felon and the firearms in his house they would need to
be confiscated. Baxter also requested a search of the residence.
As I arrived back on scene from a few blocks away I saw that Nava was walking outside and quickly
walked back inside the house, and there was also another female there identified as Tanisha Martian
(Booth's daughter who also lived there with him.)

REPORTllG OFFICER NAllE AND Ill

STOVALL # 0432

OATC

11/10/2018

REVEWING SUPERVISOR

I

REID, CLYDE

DA.TC

11/10/2018

Case Report 2018-00081680 Page 3 OF 4

1c

USAO-026

BILLINGS POL

_-. D_E_P_A_R-TM
_E
_N
_T- - - - - - - 4(

CASE NO.

2018-00081680

CASE REPORT

SUPPLEMENT (Continuation)

I spoke with Nava and told her the reason we were there. I then entered the house with Tanisha so that
she could identify the rooms inside the house. Upstairs she stated that the blue bedrooom and the most
northern bedroom was Booth's and hers was the room right south of it.
I quickly stepped into Booth's room and saw that the AR15 magazine's and both Glock's were missing,
however the AR 15 was still there.
I immediately walked downstairs and asked Nava where the Glock's had gone. She stated that she was
getting ready to take them and they were on the couch. Nava stated that she had bought the guns and
they belonged to her. I asked her why they were at Booth's house and she stated that she stays there a
couple days.
I advised her that based on the situation and after speaking with Probation and Parole the firearms were
going to be confiscated, and a probation search had also been requested. The firearms along with thhe
magazines were secure in Ofc Adams vehicle.
Ofc Adams and I then began the search of the house. IN the kitchen area a large glass jar full of
marijuana was found on an ottoman in the NW corner. IN a kitchen closet a small multicolored purse with
several paraphernalia items was located, along with two canisters with marijuana edibles one being
strawberry and the other being peach flavored. These items were collected.
In a kitchen chair there was a plastic bag which contained over 700 rounds of .223 ammunition, which
were also collected.
We continued searching and located a dual shoulder holster in a laundry basket in the kitchen, and a .223
magazine satchel in Booth's room.
All items were photographed and collected as evidence.
The items were then transported to evidence where they were process and booked in as evidence. THe
marijuana was NIK tested and tested presumptive positive for the presence of THC.
I requested this casebe forwarded on to the proper detectives for charging.

RfPORTllG OFFICfR NAJ.IE AND D11

STOVALL # 0432

DATE

11/10/2018

REVEWING SUPERVISOR

I

REID, CLYDE

DATE

11/10/2018

Case Report 2018-00081680 Page 4 OF 4

2c

USAO-027

APPENDIX D
Billings Police Case Report – Officer Adams

•

BILLINGS POL

...: DEPARTMENT
CASE REPORT

2018-00081680

SUPPLEMENT
On 11/10/18 I, Ofc Adams, responded with Ofc Stovall to a report of a burglary at
We
arrived on scene and a neighbor informed us that the resident, Monwell Booth, was not home and the
back door had been damaged. I observed the damaged door and it was unsecured. Ofc Stovall and I
cleared the residence. While clearing the residence, I observed two Glock pistols and an AR15 rifle in the
upstairs bedroom in a closet. I also observed multiple one dollar bills in a dresser drawer and floor of the
bed room. We did not locate anyone inside the residence.
Ofc Stovall informed me that he was able to make contact with Monwell via telephone. Ofc Stovall
informed me that Monwell did not wish to pursue charges, which was odd to me. A female, Samie Nava,
arrived on scene in her vehicle bearing MT plate BMD790. She informed Ofc Stovall she was going to
secure the residence for Monwell. I left the scene. I discovered that Monwell is on supervision with the
State of Montana for Assault with a Weapon and Criminal Endangerment. I informed Ofc Stovall and went
back to the residence. I had been away from the scene for several minutes. Ofc Stovall informed me that
he spoke with PO Baxter and Probation and Parole was requesting the firearms be seized.
I returned to the residence as Samie was starting to exited the residence. She observed my patrol car and
went back inside the residence. Tanisha Martian, Monwell's daughter, arrived on scene. I made contact
with both of them outside of the residence. Tanisha informed me that the only persons that reside at the
address is her father and herself. Ofc Stovall arrived on scene and did a walk through with Tanisha. Ofc
Stovall informed me that the pistols we had observed in the closet were no longer there.
Ofc Stovall asked Samie where they were. She stated they were hers and they were on the living room
couch, which I located where she said they were. PO Baxter requested a search of the residence. Ofc
Stovall and I completed a search of the residence per PO Baxter. SGT. Reid and Jensen waited with
Tanisha and Samie left in her vehicle.
Ofc Stovall located a glass jar with a green leafy substance inside, later tested positive for THC using a
NIK test in the kitchen area. I located a bag in a closet in the kitchen with THC edibles and two glass
pipes. I located a grocery bag with multiple 223 caliber ammo in the kitchen area. Ofc Stovall located a
shoulder holster in the kitchen area and another one in Monwell's bedroom, where the firearms were first
observed .
I located multiple personal documents with Monwell's name on them in the bedroom where the firearms
were located. I took photographs. I had dispatch run the firearm's serial numbers to see if they were
stolen. Dispatch informed me they were not stolen. The items were seized. Ofc Stovall and I logged the
seized items into BPD evidence.

Rfl'ORlllG OFFlCER NAlolE AHO DJ

ADAMS#0430

DATE

11/10/2018

REVEWING SUPERVISOR

I

REID, CLYDE

OATC

11/10/2018

Supplement 2018.00081680 Page 1 OF 1

1d

USAO-028

